               Department of Veterans Affairs
               Office of Inspector General



                   Office of Healthcare Inspections

Report No. 14-01261-03



              Healthcare Inspection

      Follow-Up of Quality of Care, 

      Management, and Operations 

    Iowa City VA Health Care System
             Iowa City, Iowa 





October 21, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
            Follow-Up of Quality of Care, Management, and Operations, Iowa City VA HCS, Iowa City, IA



                                 Executive Summary 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection at the request of Senator Charles E. Grassley to follow up on a prior
inspection at the Iowa City VA Health Care System, Iowa City, IA. We previously
evaluated the overall quality of care, management, and operations and an allegation
that concerns expressed by staff “have been largely ignored” and published Review of
Quality of Care, Management, and Operations, Iowa City VA Health Care System, Iowa
City, Iowa, Report No. 12-02263-269, August 29, 2012. For the current inspection, we
assessed the implementation and progress of the action plans developed in response to
OHI recommendations from the 2012 report and evaluated a new allegation that
“nothing had changed in Iowa City.”

We noted overall improvements in the delineation of organizational lines of authority
and responsibility, as well as in the efforts to communicate both laterally and vertically
throughout the system.

In response to recommendations from the 2012 report, we found that the system had
enhanced the amount of information shared at various meetings, practices related to
documentation and tracking, and its reporting schedule and expectations for both
committees and service lines. Multiple changes within middle management had been
made to strengthen oversight and minimize staff having temporarily assigned duties. In
addition, the system had implemented processes to increase interaction, support, and
communication with its community based outpatient clinics. Since the prior report, a
new policy was created regarding the management of drug shortages, and the system
has incorporated its drug shortage policy into its overall medication management policy.

We did not substantiate the allegation that “nothing had changed.” We found that high
quality medical care had been maintained. While some concerns remain in limited
areas regarding blame, fear of retaliation, and reactionary leadership, the system is
working to create a culture and environment that feels safe and non-retaliatory. The
system acknowledged the need for continued progress in these areas. As such, the
system’s challenge is to continue further along the path of improvement while sustaining
the positive changes to date. We made no recommendations.

Comments
The Veterans Integrated Service Network and Facility Directors concurred with the
report. (See Appendixes A and B, pages 10–11, for the Directors’ comments.) No
further action is required.




                                                            JOHN D. DAIGH, JR., M.D.
                                                           Assistant Inspector General for
                                                             Healthcare Inspections


VA Office of Inspector General                                                                      i
            Follow-Up of Quality of Care, Management, and Operations, Iowa City VA HCS, Iowa City, IA



                                          Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection at the request of Senator Charles E. Grassley to follow up on a prior
report at the Iowa City VA Health Care System (system), Iowa City, IA. In addition, we
evaluated a new allegation received by Senator Charles E. Grassley that “nothing had
changed in Iowa City” since OIG’s visit in 2012.

                                       Background 

The system includes a tertiary care university-affiliated teaching hospital with 83 acute
medical, surgical, and psychiatric beds and provides outpatient care at the parent facility
and at 10 community based outpatient clinics (CBOCs), 7 in Iowa and 3 in Illinois. The
system is part of Veterans Integrated Service Network (VISN) 23 and serves veterans in
33 counties in eastern Iowa, 16 counties in western Illinois, and 1 county in northern
Missouri.

In the prior report, we evaluated the overall quality of care, management, and
operations and that concerns expressed by staff “have been largely ignored” and
published Review of Quality of Care, Management, and Operations, Iowa City VA
Health Care System, Iowa City, Iowa, Report No. 12-02263-269, August 29, 2012.
During this review we assessed the continued implementation and progress of the
action plans developed in response to OHI recommendations from the 2012 report. The
recommendations included that:

   	 The VISN Director ensure that system leaders take appropriate action in
      response to identified problems, and communicate action plans to staff.

   	 System leaders clarify organizational lines of authority and responsibility, to
      include expectations for committee reporting.

   	 System leaders strengthen processes to ensure that all required participants or
      their designees consistently attend environment of care (EOC) rounds and that
      fire and life safety inspections are conducted annually at the CBOCs.

   	 System leaders establish written policies for the management of drug shortages.

System Leadership

Following our initial inspection, critical positions, including the Chief of Staff (COS),
Associate Director for Operations, and most recently, Director, remained in transition.
Leadership within the system is a quadrad structure with a Director, Associate Director
for Operations, Associate Director of Patient Care Services (ADPCS)/Nurse Executive,
and COS. Changes in three of these four positions have occurred since our
2012 onsite visit; the position without turnover is that of the ADPCS.




VA Office of Inspector General                                                                     1
                Follow-Up of Quality of Care, Management, and Operations, Iowa City VA HCS, Iowa City, IA


At the time of the original inspection (May 2012), the Director was detailed to the VISN
and serving as the Acting Director of the Minneapolis VA Health Care System.
Therefore, the system had an Acting Director. As of February 3, 2014, the system has
a new Acting Director due to the retirement of the previous Director.

The Associate Director for Operations position, which had been filled 5 months prior to
our May 2012 visit, has subsequently been vacated. This position is now held in an
acting capacity.

In November 2013, the system engaged a recruitment firm to look for qualified COS and
Director of Medicine candidates. At the time of the original inspection, the COS position
was being filled in an acting capacity. After 33 months with an Acting COS, the system
hired a permanent COS in May 2014. While not part of the quadrad, the Director of
Medicine is an integral position that has been filled in an acting capacity since October
2012.

Throughout fiscal year (FY) 2013, the system was able to bring on many full-time
employee equivalents (FTE) to fill staffing gaps in a variety of services. Two
enhancements to nursing service leadership included hiring five new nursing supervisor
positions to work off-tours1 and weekends and the creation of the Deputy Associate
Director of Patient Care Services position in August 2013.

                                  Scope and Methodology 

Prior to our visit, in an effort to provide a baseline comparison, OIG conducted an
Employee Assessment Review (EAR) survey regarding patient care and working
conditions that was identical to the survey conducted in 2012.

In addition, we reviewed extensive system documentation, including: performance data;
staff satisfaction information; EOC policies, fire drills, and inspection schedules; patient
safety data; meeting minutes and tracking logs for the All Employee Forums (AEF),
Clinical Executive Board (CEB), and Performance Improvement Council (PIC); local
organizational Medical Center Memorandums; FY 2013 and FY 2014 committee
reporting schedules; 2014 system strategic planning documents; and other external
reviews from 2013.

We conducted a site visit on May 7, 2014. We interviewed the Acting Director, the
ADPCS, nursing clinical and administrative managers, CBOC/Primary Care Clinic
(PCC) clinical and administrative managers, the Acting Director of Medicine, pharmacy
representatives, the outgoing Acting COS and new COS, Patient Safety Managers, and
Acting Associate Director for Operations.

An OIG phone line, specific to this review, was staffed on May 7–8, 2014, to allow staff
to call and express any concerns regarding the system. The phone number was
provided to the system quality manager and patient safety managers to communicate to

1
    Off-tours are considered weekend, holidays, evening and night shifts.


VA Office of Inspector General                                                                         2
            Follow-Up of Quality of Care, Management, and Operations, Iowa City VA HCS, Iowa City, IA


staff who approached them with related questions and concerns, and OIG team
members had cards with the number available while they were onsite. We received no
calls.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                     3
            Follow-Up of Quality of Care, Management, and Operations, Iowa City VA HCS, Iowa City, IA



                                 Inspection Results 

A. Follow-Up on Prior Report

All four of the prior recommendations from Review of Quality of Care, Management, and
Operations, Iowa City VA Health Care System, Iowa City, Iowa, Report No. 12-02263-
269 (August 29, 2012) were formally closed by OHI as of June 18, 2013. However,
during this review, each area was reassessed to ensure that process improvements had
been maintained.

   1. We recommended that the VISN Director ensure that system leaders take
      appropriate action in response to identified problems, and communicate
      action plans to staff.

We found that the system has improved communication of action plans to staff.
Improvements in discussion and documentation of action plans and related relevant
information enable staff to review meeting minutes and learn where issue areas are in
the improvement cycle.

The system has enhanced the AEFs. AEFs are Town Hall meetings open to all staff
with the goal of sharing information relevant to employees of the health care system.
AEFs were held 9 months during FY 2013. For those who are unable to attend, the
system posts AEF minutes to a SharePoint site accessible to all employees. Frequent
reports at the forums included policy updates with rationale for any changes, budget
(including FTE status and hiring), construction updates, changes in leadership
responsibility (at the system and VISN), upcoming inspections, and a question and
answer session. The Finance Board meetings have been opened up to staff, with new
managers often attending as part of their orientation. Minutes and reports from the
Finance Board meetings are also posted and available to all staff. In addition, in an
effort to ensure staff are aware of pending construction projects that may impact their
work, construction engineers have met with nurse managers to communicate next
steps. Communications to staff consistently included the action plans for issues of
concern, as well as the status of the implementation of those actions.

The current process for all committees, sub-committees, and work groups to document
and track performance improvement processes is the utilization of a formalized
system-wide plan-do-study-act (PDSA) form. Demonstrated use of the form can be
found in the minutes reviewed, and items can be identified as being monitored and
tracked to closure.

   2. We recommended	 that system leaders clarify organizational lines of
      authority and responsibility, to include expectations for committee
      reporting.

Overall, we found that the system has implemented and maintained a robust reporting
schedule for both committees and service lines. The newly established fiscal year
reporting schedules give clear guidance and expectations regarding the items to be


VA Office of Inspector General                                                                     4
             Follow-Up of Quality of Care, Management, and Operations, Iowa City VA HCS, Iowa City, IA


reported, the responsible party, and related performance measures.             General
improvement trends noted include enhanced item tracking through monitoring and
closure, more comprehensive reports, increased use of PDSA forms, and reporting from
a wider representation of system staff rather than all reports coming from one service,
provider type, or individual.

While the upper levels of organizational structure have not significantly changed,
multiple changes occurred within the organizational structure of middle management
and the various services. Within the nursing service, the Deputy Director of Patient
Care Services position was established in order to assist in overall management and
communication. Five full-time nursing manager positions were created to improve
oversight and support during off-tour shifts. Supervisory clerk positions were also put in
place to provide clerks with a direct supervisor to address questions and concerns.
PCC and CBOC leadership now includes a nurse administrator and physician leader
working closely together. Staff reported a significant increase in leadership availability
and presence at the CBOCs. In the area of pharmacy, a second Associate Chief
position was created for outpatient services. Overall, with the addition of these clearly
defined positions, staff have fewer temporarily assigned duties due to gaps in staffing
and are able to focus on their designated roles and responsibilities.

    3. We recommended	 that processes be strengthened to ensure that all
       required participants or their designees consistently attend EOC rounds
       and that all fire and life safety inspections are conducted annually at the
       CBOCs.

OIG reviews subsequent to the initial hotline report confirm compliance in the area of
EOC. The OIG conducted both a Combined Assessment Program (CAP) review2 and a
CBOC review3 within 6 months of the original inspection at Iowa City; there were no
EOC findings in either review. In addition, minutes of the AEFs, CEB, and PIC contain
documentation that reflects increased interaction, support, and communication with
CBOCs throughout the organization. CBOC staff reported timely attention is given by
their leadership to EOC and equipment concerns when raised.

    4. We recommended	 that the system establish written policies for the
       management of drug shortages.

This recommendation had been previously closed after a new policy was created to
address drug shortages. The system has since incorporated its drug shortage policy
into its overall medication management policy.          Pharmacy communications
demonstrated actions taken to manage drug shortages. Staff were able to articulate the
policies and processes intended to be used to identify, mitigate, and manage drug


2
  Combined Assessment Program Review of the Iowa City VA Health Care System, Iowa City, IA, February 4, 2013, 

Report No. 12-03745-93

3
  Community Based Outpatient Clinic Reviews at Iowa City VA Health Care System, Iowa City, IA, February 19, 

2013, Report No. 12-03854-114 




VA Office of Inspector General                                                                               5
            Follow-Up of Quality of Care, Management, and Operations, Iowa City VA HCS, Iowa City, IA


shortages and provided OHI with examples where the process had been implemented.
Since the policy went into effect, the system has successfully managed drug shortages.

B. System Change

In early 2014, OHI was contacted by Senator Charles E. Grassley’s office expressing
concerns related to Iowa City staff reports that “nothing has changed” since our initial
review in 2012.

To assess for system change we examined the same four overarching areas that were
the subject of the prior 2012 inspection: Quality of Care, Management Effectiveness,
Staff Morale, and System Operations. Specific items were re-evaluated for the
presence or absence of change. We did not substantiate the new allegation that
nothing has changed since our previous 2012 visit.

Issue 1: Quality of Care

Performance Data

Since the time of the original report, VHA has continued to collect data from each of its
facilities to allow comparisons of performance. The ASPIRE dashboard is one tool used
to depict how each VA Medical Center measures up to quality goals. The dashboard
documents quality and safety goals for all VA Hospitals and the measured performance
of each facility. The data shows strengths and opportunities for improvement at the
national, regional, and local hospital level. The database lists many “measures,” the
goal for each measure, and the actual performance. An example would be the goal for
all veterans age 18–85 with high blood pressure to have blood pressure readings below
140/90; the data in the dashboard shows the percentage of veterans meeting that blood
pressure goal. For the 21 measures reviewed in the first quarter FY 2014 ASPIRE
report, the system was within 10 percent of the goal or better for 14 of the measures.
None of the measures was more than 30 percent from the goal. The previous lowest
performing measure, the rate of pressure ulcers, was discussed and monitored by the
PIC. The system has made notable improvement in this area shifting from being more
than 30 percent from the goal in 2012 to now being within 20 percent of the goal.

In addition to those measures reported in the ASPIRE report, each site tracks a number
of other inpatient and outpatient measures of quality. In the time period since the last
report, the system worked closely with a consultant to address Inpatient Evaluation
Center (IPEC) measures of concern, specifically morbidity and mortality data. System
PDSA efforts, have resulted in overall improvements.

Issue 2: Management Effectiveness

We reviewed directives, policies, data collection, and analyses relevant to quality and
patient safety. We examined processes that identify areas needing improvement,
implementation of identified actions to mitigate patient care risks, and evaluation of




VA Office of Inspector General                                                                     6
               Follow-Up of Quality of Care, Management, and Operations, Iowa City VA HCS, Iowa City, IA


implemented actions. In addition, we examined leadership’s involvement and support of
the processes.

In the original report we noted that fear of retribution led staff to avoid reporting
incidents. In addition, staff had limited knowledge on how to report incidents and
reporting brought about limited change. In our follow-up, we found progress in both
enhancements to system reporting programs, as well as in the encouragement and
recognition of staff for bringing concerns forward for both potential and actual events.
Improvement actions identified through internal review processes were found to be in
place and/or in progress with an evaluation of the effectiveness of the change also
being conducted. The system’s patient safety program is in alignment with directive
requirements.4

Although these enhancements were evident, discussions during the onsite inspection
revealed that in select areas staff continue to experience a reactionary response when
reporting issues, resulting in continued fear of blame and retaliation. Staff stated they
did not consistently receive leadership support in the reporting of incidents and believed
that not having permanent senior leadership contributed to the challenge of addressing
these issues.

Issue 3: Staff Morale

To gather information from system employees, OHI conducted an EAR survey
regarding patient care and working conditions. All staff, paid and volunteer, received an
e-mail invitation on February 2, 2014 to respond anonymously through a dedicated OIG
internet portal. Individuals responding to the survey could, if they wished, provide
specific details and contact information. We maintained the confidentiality of all
EAR survey respondents and ensured content consistency between the 2012 and
2014 versions.

The EAR survey received 450 responses through February 17, 2014, with 126
commenting on a condition of concern. Prior EAR surveys were conducted in 2012 and
in 2013 as part of the system’s CAP review. Results from all three EAR surveys were
reviewed and demonstrated an overall decrease in the number of responses,
comments, and concerns.

Analysis of responses to the EAR surveys afforded an opportunity to evaluate trends
over time and focus on issues that might otherwise receive less attention. The principal
categories of reported concerns were consistent among all three surveys with staffing,
communication, and quality of care issues most often reported. Our review found that
the number of concerns reported in 2014 for all areas was significantly reduced when
compared to the previous 2012 and 2013 EAR surveys. While the majority of
responses identified a specific area of concern, EAR survey responders did report that
changes had occurred and improvements in the system had been noted.


4
    VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011


VA Office of Inspector General                                                                        7
                Follow-Up of Quality of Care, Management, and Operations, Iowa City VA HCS, Iowa City, IA


The VHA All Employee Survey (AES) is an annual voluntary survey asking questions in
the areas of job satisfaction, organizational assessment, civility, and culture. We
reviewed the status of the system’s AES scores for FY 2011, FY 2012, and FY 2013.
Employee response to the surveys indicated stable and positive results overall. In
addition, during interviews staff indicated an improved culture with an increase in civility
across the board. On average, the system had FY 2013 scores consistently above the
mean for the seven facilities surveyed in VISN 23.

Issue 4: System Operations

Access to Care

VHA is currently restructuring its standard for measuring wait times. Historically, VHA
used a 14 day standard for measuring access to care. When we used that standard, we
found that compared with the other 7 facilities in VISN 23, the system had a better rate
of access than 5 of the facilities in 2014.5

Access to specific clinical areas for both new and established patients is also monitored.
The data available at the time of this report indicates that the system was providing
timely access for established patients with much longer waits for new patients.

VHA recently conducted a national access audit of wait time practices and published the
results on June 9, 2014. VHA reviewed the system but did not flag it as requiring further
review and investigation.

Staffing

In the original report we noted widespread concern about vacancies not being filled, the
process for hiring new staff being inadequate, positions remaining vacant for prolonged
periods of time, the lack of a consistent approach to nurse staffing across shifts and
areas of the hospital, and nurses being pulled to areas of the hospital where they do not
normally work. A review of recent staff turnover found rates comparable to other VA
facilities. Interviews with staff confirmed that the process for sharing the status of
vacant positions has improved significantly as has the timeliness for filling of vacant
positions. Human Resources has been given blanket authority to backfill clinical
positions in target service lines. Nursing staff reported significant and positive changes
in the approach to nurse staffing across shifts with the addition of five off-tour nursing
supervisors providing stability and consistency.

                                             Conclusions 

We found that the system has sustained the action plans that were implemented in
response to the original report from 2012.



5
    VSSC: Top 50 Clinics (FY2012) - All Patients- Greater than 14 days.


VA Office of Inspector General                                                                         8
            Follow-Up of Quality of Care, Management, and Operations, Iowa City VA HCS, Iowa City, IA


We did not substantiate the new allegation that nothing has changed since our previous
2012 visit. To the contrary, much has improved with the added management positions,
enhanced communications, and new reporting structures. While some concerns remain
in limited areas regarding blame, fear of retaliation, and reactionary leadership, the
system is working to create a culture and environment that feels safe and non-
retaliatory. Performance improvement actions that are appropriately focused on
system-level issues promote the psychological safety imperative for ongoing cultural
change. Transformation to an environment in which frontline staff feels comfortable
disclosing errors, including their own, while maintaining professional accountability and
systems analysis based organizational processes must engage all levels of staff and is
an evolving process that takes time and engaged, permanent leadership.

In summary, the system acknowledged the need for continued progress in these areas.
As such, the system’s challenge is to continue further along the path of improvement
while sustaining the positive changes to date.

We made no recommendations.




VA Office of Inspector General                                                                     9
              Follow-up of Quality of Care, Management, and Operations, Iowa City VA HCS, Iowa City, IA
                                                                                          Appendix A
                              VISN Director Comments


                 Department of
                 Veterans Affairs                                        Memorandum

       Date:	 September 9, 2014

       From:	 Director, Veterans Integrated Service Network (10N23)

       Subj: 	 Healthcare Inspection - Follow-Up of Quality of Care, Management,
                 and Operations, Iowa City VA HCS, Iowa City, IA

       To:	      Director, Seattle Office of Healthcare Inspections (54SE)

                 Director, Management Review Service (VHA 10AR MRS OIG
                 Hotline)



                 1. The purpose of this Memorandum is to acknowledge receipt of
                    the Follow-Up of Quality of Care, Management, and Operations,
                    Iowa City, Iowa Draft Report. No recommendations were made,
                    and we suggest this item be closed.

                 2. If you have any questions or would like to discuss this response,
                    please contact 319-339-7100.



                 (original signed by:) 

                 Janet P. Murphy, MBA 





VA Office of Inspector General                                                                      10
              Follow-Up of Quality of Care, Management, and Operations, Iowa City VA HCS, Iowa City, IA
                                                                                           Appendix B
                           System Director Comments


                 Department of
                 Veterans Affairs                                         Memorandum

       Date:	 September 9, 2014

       From:	 Acting Director, Iowa City VA Health Care System (636/00)

       Subj: 	 Healthcare Inspection - Follow-Up of Quality of Care, Management,
                 and Operations, Iowa City VA HCS, Iowa City, IA

       To:	      Director, VA Midwest Health Care Network (10N23)



                 1. The purpose of this Memorandum is to acknowledge receipt of
                    the Follow-Up of Quality of Care, Management, and Operations,
                    Iowa City, Iowa Draft Report. No recommendations were made,
                    and we suggest this item be closed.

                 2. If you have any questions or would like to discuss this response,
                    please contact me at 319-339-7100.



                 (original signed by:)
                 Dawn Oxley




VA Office of Inspector General                                                                      11
            Follow-Up of Quality of Care, Management, and Operations, Iowa City VA HCS, Iowa City, IA
                                                                                        Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Jerome E. Herbers Jr., MD, Team Leader
                         Sarah Mainzer, RN, JD, Team Leader
                         Carol Lukasewicz, RN, BSN
                         Sami O’Neill, MA
                         Noel Rees, MPA
                         Susan Tostenrude, MS
                         Marc Lainhart, BS, Management and Program Analyst




VA Office of Inspector General                                                                    12
            Follow-Up of Quality of Care, Management, and Operations, Iowa City VA HCS, Iowa City, IA
                                                                                        Appendix D

                                  Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Midwest Health Care Network (10N23)
Acting Director, Iowa City VA Health Care System (636/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: 	Richard Durbin, Charles E. Grassley, Tom Harkin, Mark Kirk, Roy Blunt,
 Claire McCaskill
U.S. House of Representatives: 	Bruce L. Braley, Cheri Bustos, Sam Graves,
 Steve King, Tom Latham, David Loebsack, Aaron Schock



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                    13
